                                UNITED STATES
                        NUCLEAR REGULATORY COMMISSION
                                 WASHINGTON, D.C. 20555-0001




OFFICE OF THE
INSPECTOR GENERAL


                                                  November 10, 2008

MEMORANDUM TO:             Chairman Klein



FROM:                      Hubert T. Bell /RA/
                           Inspector General


SUBJECT:                   RESULTS OF THE AUDIT OF THE UNITED STATES
                           NUCLEAR REGULATORY COMMISSION'S FINANCIAL
                           STATEMENTS FOR FISCAL YEAR 2008
                           (OIG-09-A-01)


The Chief Financial Officers Act of 1990, as amended (CFO Act), requires the Inspector
General (IG) or an independent external auditor, as determined by the IG, to annually
audit the United States Nuclear Regulatory Commission’s (NRC) financial statements in
accordance with applicable standards. In compliance with this requirement, Urbach
Kahn & Werlin, LLP (UKW) was retained by the Office of the Inspector General (OIG) to
conduct this annual audit. Transmitted with this memorandum are the following UKW
reports:

   •   Opinion on the Principal Statements.

   •   Opinion on Internal Control.

   •   Compliance with Laws and Regulations.

NRC’s Performance and Accountability Report includes comparative financial
statements for FY 2008 and FY 2007. Therefore, it is important to note that R. Navarro
& Associates, Inc. performed the audit of NRC’s FY 2007 financial statements.

Objective of a Financial Statement Audit

The objective of a financial statement audit is to determine whether the audited entity’s
financial statements are free of material misstatement. An audit includes examining, on
a test basis, evidence supporting the amounts and disclosures in the financial
statements. An audit also includes assessing the accounting principles used and
significant estimates made by management as well as evaluating the overall financial
statement presentation.

UKW’s audit and examination were made in accordance with auditing standards
generally accepted in the United States of America; Government Auditing Standards
issued by the Comptroller General of the United States; and Office of Management and
Budget (OMB) Bulletin No. 07-04, Audit Requirements for Federal Financial Statements,
as amended. The audit included obtaining an understanding of the internal controls
over financial reporting and testing and evaluating the design and operating
effectiveness of the internal controls. Because of inherent limitations in any internal
control, there is a risk that errors or fraud may occur and not be detected. Also,
projections of an evaluation of internal control over financial reporting to future periods
are subject to the risk that the internal control may become inadequate because of
changes in conditions, or that the degree of compliance with policies or procedures may
deteriorate.

FY 2008 Audit Results

The results are as follows:

       Financial Statements

          •   Unqualified opinion

       Internal Controls

          •   Unqualified opinion

          •   Significant deficiency

              ─ Estimation of accounts payable year-end balance

       Compliance with Laws and Regulations

          •   Substantial noncompliance

              ─ License Fee Billing System lack of certification and accreditation

Office of the Inspector General Oversight of UKW Performance

To fulfill our responsibilities under the CFO Act and related legislation for ensuring the
quality of the audit work performed, we monitored UKW’s audit of NRC’s FY 2008
financial statements by:

   •   Reviewing UKW’s audit approach and planning.

   •   Evaluating the qualifications and independence of UKW’s auditors.

   •   Monitoring audit progress at key points.
      •   Examining the working papers related to planning and performing the audit and
          assessing NRC’s internal controls.

      •   Reviewing UKW’s audit reports to ensure compliance with Government Auditing
          Standards and OMB Bulletin No. 07-04, as amended.

      •   Coordinating the issuance of the audit reports.

      •   Performing other procedures deemed necessary.

UKW is responsible for the attached auditors’ reports, dated November 7, 2008, and the
conclusions expressed therein. OIG is responsible for technical and administrative
oversight regarding the firm’s performance under the terms of the contract. Our review,
as differentiated from an audit in conformance with Government Auditing Standards,
was not intended to enable us to express, and accordingly we do not express, an
opinion on:

      •   NRC’s financial statements.

      •   The effectiveness of NRC’s internal control over financial reporting.

      •   NRC’s compliance with laws and regulations.

However, our monitoring review, as described above, disclosed no instances where
UKW did not comply, in all material respects, with applicable auditing standards.

It is noted that OIG performed similar oversight of R. Navarro & Associates, Inc.’s audit
of NRC’s FY 2007 financial statements.

Meeting with the Chief Financial Officer

At the exit conference on November 7, 2008, representatives of the Office of the Chief
Financial Officer, OIG, and UKW discussed the issues in the report related to the results
of the audit.

Comments of the Chief Financial Officer

In his response, the Chief Financial Officer (CFO) generally agreed with the auditors’
recommendations. We will follow up on the CFO’s implementation of planned corrective
actions during FY 2009. The full text of the CFO’s response follows this report.

We appreciate NRC staff’s cooperation and continued interest in improving financial
management within NRC.

Attachment: As stated

cc:       Commissioner Jaczko
          Commissioner Lyons
          Commissioner Svinicki
          V. Ordaz, OEDO
                       INDEPENDENT AUDITOR’S REPORT



Inspector General
United States Nuclear Regulatory Commission

Chairman
United States Nuclear Regulatory Commission


We have audited the accompanying balance sheet of the United States Nuclear
Regulatory Commission (NRC), as of September 30, 2008, and the related statements
of net cost, changes in net position, and budgetary resources (Principal Statements) for
the year then ended. The Principal Statements of NRC as of and for the year ended
September 30, 2007 were audited by other auditors. We also examined the NRC’s
internal control over financial reporting as of September 30, 2008.

Summary

We concluded that the NRC’s 2008 Principal Statements are presented fairly, in all
material respects, in conformity with accounting principles generally accepted in the
United States of America. We also concluded that, although improvements are needed
as noted below, the NRC had effective internal control over financial reporting (including
the safeguarding of assets):

   •   The NRC should continue to enhance its procedures for determining accounts
       payable
  .
We found one reportable instance of noncompliance with laws and regulations.

This report (including Appendices A through D) discusses: (1) these conclusions and our
conclusions relating to other information presented in the Performance and
Accountability Report, (2) management’s responsibilities, (3) our objectives, scope and
methodology, (4) management’s response and our evaluation of their response, and (5)
the current status of prior year findings and recommendations.

Opinion on the Principal Statements

In our opinion, the Principal Statements referred to above present fairly, in all material
respects, the financial position of the NRC as of September 30, 2008, and its net cost,
changes in net position, and budgetary resources for the year then ended, in conformity
with accounting principles generally accepted in the United States of America. The
Principal Statements of NRC as of and for the year ended September 30, 2007 were
audited by other auditors, whose report, dated November 7, 2007, expressed an
unqualified opinion on those statements.
               INDEPENDENT AUDITOR’S REPORT, CONTINUED


As described in footnote 1 of the Principal Statements, the NRC revised its methodology
for accounting for accounts payable as of September 30, 2008. We have not determined
what impact, if any, this revised methodology may have had on the Principal Statements
if applied in the prior year.

Opinion on Internal Control

In our opinion, the NRC maintained, in all material respects, effective control over
financial reporting (including safeguarding of assets) as of September 30, 2008 that
provided reasonable assurance that misstatements, losses or noncompliance material in
relation to the financial statements would be prevented on a timely basis. Our opinion is
based on criteria established under 31 U.S.C. 3512 (c), (d), the Federal Managers’
Financial Integrity Act, and the Office of Management and Budget (OMB) Circular A-123,
Management’s Responsibility for Internal Control.

However, we noted the matter summarized below and more fully described in Appendix
A, involving the internal control and its operation that we consider to be a significant
deficiency.

A control deficiency exists when the design or operation of a control does not allow
management or employees, in the normal course of performing their assigned functions,
to prevent or detect misstatements on a timely basis. A significant deficiency is a
deficiency in internal control, or a combination of deficiencies, that adversely affects the
NRC’s ability to initiate, authorize, record, process, or report financial data reliably in
accordance with generally accepted accounting principles such that there is more than a
remote likelihood that a misstatement of the NRC’s Principal Statements that is more
than inconsequential will not be prevented or detected by the NRC’s internal control.

       The NRC should continue to enhance its procedures for determining
       accrued accounts payable

       The NRC currently does not have a business process to record accounts
       payable and related accrued expenses in the general ledger at the
       transaction level. For the last several years, the NRC used an estimation
       methodology based on historical expenses to estimate these balances.
       Because of material variances in their prior estimates, and because the
       NRC transferred its bill paying function to the Department of Interior’s
       National Business Center during fiscal year 2008, the NRC did not have
       adequate historical data to fully support its estimate recorded as of
       September 30, 2008. For September 30, 2008, the NRC requested its
       program managers to calculate, confirm or estimate the amounts of
       goods and services received but not yet paid for its 200 largest open
       obligations. An estimated amount for unbilled and/or unpaid goods and
       services was applied to the remaining balances based on the results of a
       sample of smaller obligations. We were able to perform adequate
       compensating procedures to determine the potential effect of this
       deficiency.
              INDEPENDENT AUDITOR’S REPORT, CONTINUED

Specific details and the related recommendations for this finding are provided in
Appendix A of this report.

A material weakness is a significant deficiency, or combination of significant
deficiencies, that result in a more than remote likelihood that a material
misstatement of the Principal Statements will not be prevented or detected by the
NRC’s internal control. We do not consider this matter to be a material
weakness.

Compliance with Laws and Regulations

The results of our tests of compliance with laws and regulations, exclusive of those
referred to under the Federal Financial Management Improvement Act (FFMIA),
disclosed no instances of noncompliance that are required to be reported under
Government Auditing Standards and OMB Bulletin No. 07-04, Audit Requirements for
Federal Financial Statements, as amended. Providing an opinion on compliance with
laws and regulations was not an objective of our audit and, accordingly, we do not
express such an opinion.

Under FFMIA, we are required to report whether the NRC’s financial management
systems substantially comply with the federal financial management systems
requirements, applicable Federal accounting standards, and the United States
Government Standard general ledger at the transaction level. To meet this requirement,
we performed tests of compliance with the provisions of FFMIA section 803(a). The
results of our tests disclosed one substantial noncompliance with federal financial
management systems requirements.

       The NRC did not complete its certification and accreditation (C&A) for the
       License Fee Billing System (FEES). The NRC is currently reevaluating its
       process for the modernization of its financial management systems as
       part of the core financial system replacement and has delayed the
       timeline for the replacement of FEES. Management intends to complete
       the C&A for the system by the end of the second quarter of FY 2009.

The current status of prior year findings and recommendations is included in Appendix
B.

Other Information

The information in the Management’s Discussion and Analysis section of the NRC’s
Performance and Accountability Report is not a required part of the Principal
Statements, but is supplementary information required by accounting principles
generally accepted in the United States of America. We have applied certain limited
procedures, which consisted principally of inquiries of management regarding the
methods of measurement and presentation of the supplementary information. However,
we did not audit the information and express no opinion on it.

The Program Performance and Appendices listed in the table of contents are presented
for additional analysis and are not a required part of the financial statements. Such
               INDEPENDENT AUDITOR’S REPORT, CONTINUED

information has not been subjected to the auditing procedures applied in the audit of the
financial statements and, accordingly, we express no opinion on them.

Management Responsibilities

Management is responsible for (1) preparing the Principal Statements in conformity with
accounting principles generally accepted in the United States of America, (2)
establishing, maintaining and assessing internal control to provide reasonable assurance
that the broad control objectives of the Federal Managers Financial Integrity Act of 1982
are met; (3) ensuring that the NRC’s financial management systems substantially
comply with FFMIA; and (4) complying with applicable laws and regulations.

Objectives, Scope and Methodology

We are responsible for planning and performing our audit to obtain reasonable
assurance about whether the financial statements are free of material misstatement. An
audit includes examining, on a test basis, evidence supporting the amounts and
disclosures in the financial statements. An audit also includes assessing the accounting
principles used and significant estimates made by management, as well as evaluating
the overall financial statement presentation.

We are responsible for planning and performing our examination to obtain reasonable
assurance about whether management maintained effective internal control over
financial reporting (including safeguarding of assets) and compliance with applicable
laws and regulations based on criteria established under 31 U.S.C. 3512 (c), (d), the
Federal Managers’ Financial Integrity Act, and OMB Circular A-123, Management’s
Responsibility for Internal Control. Our examination included obtaining an understanding
of internal control related to financial reporting (including safeguarding assets) and
compliance with laws and regulations (including execution of transactions in accordance
with budget authority); testing relevant internal controls over financial reporting (including
safeguarding assets) and compliance, evaluating the design and operating effectiveness
of internal control; and performing such other procedures as we considered necessary in
the circumstances. We did not test all internal controls relevant to operating objectives
as broadly defined by the Federal Managers’ Financial Integrity Act.

Because of inherent limitations in any internal control, misstatements due to error or
fraud may occur and not be detected. Also, projections of any evaluation of the internal
control to future periods are subject to the risk that the internal control may become
inadequate because of changes in conditions, or that the degree of compliance with the
policies or procedures may deteriorate.

We are also responsible for testing compliance with selected provisions of laws and
regulations that have a direct and material effect on the financial statements. We did not
test compliance with all laws and regulations applicable to the NRC. We limited our
tests of compliance to those laws and regulations required by OMB audit guidance that
we deemed applicable to the financial statements for the fiscal year ended September
30, 2008. We caution that noncompliance may occur and not be detected by these tests
and that such testing may not be sufficient for other purposes.
               INDEPENDENT AUDITOR’S REPORT, CONTINUED

We conducted our audit and examinations in accordance with auditing standards
generally accepted in the United States of America; Government Auditing Standards,
issued by the Comptroller General of the United States; attestation standards
established by the American Institute of Certified Public Accountants; and OMB Bulletin
No. 07-04, Audit Requirements for Federal Financial Statements, as amended. We
believe that our audit and examinations provide a reasonable basis for our opinions.

We also noted other less significant matters involving the NRC’s internal control and its
operation, which we have reported to the management of the NRC in a separate letter,
dated November 7, 2008.

Distribution

This report is intended solely for the information and use of the NRC OIG, the
management of NRC, OMB, the Government Accountability Office and the Congress of
the United States, and is not intended to be and should not be used by anyone other
than these specified parties.




Arlington, Virginia
November 7, 2008
                                     Appendix A
                            Significant Deficiency, Cont’d


In our report dated November 7, 2008, we described the results of our audit of the
consolidated balance sheet of the Nuclear Regulatory Commission (NRC), as of
September 30, 2008, and the related consolidated statements of net cost, changes in
net position, and the combined statement of budgetary resources (Principal Statements)
for the year then ended. The objective of our audit was to express an opinion on these
financial statements. In connection with our audit, we also considered the NRC’s
internal control over financial reporting and tested the NRC’s compliance with certain
provisions of applicable laws and regulations that could have a direct and material effect
on its financial statements. The following presents additional detail on the internal control
deficiency discussed in that report.

1. The NRC should continue to enhance its procedures for determining
accrued accounts payable.

       The NRC currently does not have a business process to record accounts
       payable and related accrued expenses in the general ledger at the
       transaction level. For the last few years, the NRC has used an estimation
       methodology based on historical average percentage of actual accounts
       payable to expenses. The actual amount of accounts payable for a prior
       period was calculated through a review of subsequent disbursements.
       During fiscal year 2008, the NRC’s management identified errors in its
       subsequent review procedures and found that their methodology was not
       reliable in estimating the September 30, 2007 non-federal accounts
       payable balance.

       During fiscal year 2008, the NRC also transferred its bill paying function
       to the Department of Interior’s National Business Center. Although
       management does not believe this transition has materially impacted its
       bill paying patterns for the fiscal year end, they did not have sufficient
       time to analyze this data to support their historical estimation
       methodology for the current fiscal year end.

        For September 30, 2008, the NRC requested its program managers to
       calculate, confirm or estimate the amounts of goods and services
       received but not yet paid for its 200 largest open obligations. An
       estimated amount for unbilled and/or unpaid goods and services was
       applied to the remaining balances based on the results of a sample of
       smaller obligations.

       While this new methodology should reduce the risk of misstatements in
       the recorded balance for non-federal accounts payable, the NRC has not
       fully documented its business processes and policies related to this
       methodology. In addition, the NRC has not established historical
       relationships between the accrued accounts payable balances and
       unliquidated obligations in order to corroborate the results of this process.
       We were able to perform adequate compensating procedures to
       determine the potential effect of this deficiency.
                                   Appendix A
                          Significant Deficiency, Cont’d


       Without effective documented procedures and historical analysis,
       management cannot adequately ensure that the potential misstatement
       related to using this methodology rather than recording accounts payable
       and the related accrued expenses at the transaction level is appropriately
       immaterial.

We recommend that the NRC’s Chief Financial Officer:

1.     Ensure the NRC’s long term plans for replacing the core financial management
       system evaluate the system requirements for recording accounts payable and
       related accrued expenses at the transaction level. (New)

2.     Document the NRC’s policies and procedures for calculating, estimating and
       recording accounts payable for the largest obligations quarterly. (New)

3.     Consider the accounts payable process a high risk area in connection with the
       agency’s management control program and conduct reviews and testing of the
       interim quarters for FY 2009 accordingly. (New)

4.     Establish historical relationships between accrued expenses and unliquidated
       obligation levels that may support near term calculations of accounts payable
       and related accrued expenses. (New)
                                     Appendix B
                Status of Prior Year Findings and Recommendations
  Our assessment of the current status of reportable conditions and material weaknesses
  identified in prior year audits is presented below:

Prior Recommendation                            Type             Fiscal Year 2008 Status
1. The NRC CFO should                    2007 Material        Closed.
coordinate with the Office of            Weakness/Substantial
Information Services and the             Noncompliance with
Executive Director for Operations to     Laws and Regulations
ensure that any vulnerabilities of the
general support systems and the
financial management systems are
addressed and resolved timely.
2. The NRC CFO should continue to        2007 Significant     Closed.
define, design and implement             Deficiency
compensating controls over the fee
billing system.
